   DISPOSAL OF EXCESS GOVERNMENT-OWNED PROPERTY
          IN THE POSSESSION OF CONTRACTORS


Report No. D-2001-004                October 13, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DCMA                  Defense Contract Management Agency
DADS                  Defense Contract Management Agency Automated Disposition
                        System
MRM                   Management Reform Memorandum
NPR                   National Performance Review
OUSD (AT&L)           Office of the Under Secretary of Defense for Acquisition,
                        Technology, and Logistics
                       Office of the Inspector General, DoD
Report No. D-2001-004                                                October 13, 2000
   (Project No. D2000CK-0083)

              Disposal of Excess Government-Owned Property
                      in the Possession of Contractors

                                 Executive Summary

Introduction. This audit was initiated in response to allegations to the Defense Hotline
that the Defense Contract Management Agency (formerly the Defense Contract
Management Command) was falling short of meeting its Management Reform
Memorandum 5 goal to dispose of $7 billion of excess Government-owned property by
December 31, 1999. The allegation also stated that the Defense Contract Management
Agency falsified property disposal reports by transferring the accountability of property
from one contract to another and treating that action as a plant clearance disposal
action. As of December 31, 1999, the Defense Contract Management Agency reported
about $7.3 billion in disposals of excess Government-owned property. This report
discusses the accuracy and reliability of the Defense Contract Management Agency
reporting as it relates to Management Reform Memorandum 5 and the similar National
Performance Review Goal 11b.

Objectives. The overall audit objective was to determine whether the Defense Contract
Management Agency plant clearance actions comply with applicable DoD guidance and
whether the Defense Contract Management Agency plant clearance cases actually
resulted in the disposition of excess Government-owned property reported on the plant
clearance actions. We also reviewed the management control program as it applied to
the overall objective. See Appendix A for a discussion of the audit process and the
review of the management control program.

Results. The allegation that the Defense Contract Management Agency failed to meet
its Management Reform Memorandum goal was substantiated. The allegation that
property disposal reports were falsified was partially substantiated, in that the reporting
was erroneous. We did not conclude that the misreporting was intentional. See
Appendix B for a discussion of the allegations to the Defense Hotline.

The Defense Contract Management Agency screening and redistribution of excess and
underutilized Government-owned property complied with applicable DoD guidance.
However, the Defense Contract Management Agency data reported to Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics on the
Management Reform Memorandum 5 goal to dispose of Government-owned property
held by Defense contractors was inaccurate and unsupported. As a result, the Defense
Contract Management Agency data did not accurately reflect the progress made toward
meeting the established goal to dispose of $7 billion in excess property by
December 31, 1999. Also, the inaccuracy of the Management Reform Memorandum
data raised serious questions as to the accuracy of the reported National Performance
Review data related to the initiative to dispose of $3 billion of unneeded special test
equipment, special tooling, industrial, and other plant equipment (finding A).
The goal that DoD established to dispose of $7 billion of property under the
Management Reform Memorandum 5 initiative was ineffective in reversing the
property growth trend and reducing the total amount of property in the possession of
contractors. As a result, the total property in the possession of contractors increased by
$1.1 billion during the Management Reform Memorandum 5 initiative period. Also,
property in the possession of contractors in the property categories specifically
addressed in Management Reform Memorandum 5 increased by about $428 million
during the period of October 1, 1997 to December 31, 1999 (finding B). For details on
the audit results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Defense Contract
Management Agency provide property disposal reports to the Under Secretary of
Defense for Acquisition, Technology, and Logistics for meeting the extended National
Performance Review Goal, that exclude transferred, withdrawn and agency peculiar
property from report totals. We also recommend that the Defense Contract
Management Agency establish controls for monitoring the compilation and accuracy of
property disposal data and to ensure that transferred, withdrawn and agency peculiar
data is not reported as a disposal toward meeting the National Performance Review
goal. In addition, we recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics establish realistic long term goals and implementation plans
to reduce the total amount of property and to limit the amount of growth for new
property in the possession of contractors.

Management Comments. The Defense Contract Management Agency concurred with
excluding withdrawn property (losses, reporting errors, duplicate inputs, etc.) from
property disposal reports provided to the Under Secretary of Defense for Acquisition,
Technology, and Logistics for meeting the extended National Performance Review
totals. However, they nonconcurred with excluding transferred and agency peculiar
property from property disposal reports because the Defense Contract Management
Agency believed that including all transferred and agency peculiar property in disposals
was consistent with provisions in the Federal Acquisition Regulations. The Defense
Contract Management Agency generally concurred with establishing controls for
monitoring the compilation and accuracy of property disposal data reported as disposals
that count toward meeting the National Performance Review goal. The Deputy Under
Secretary of Defense (Acquisition Reform) concurred with the need to establish long
term realistic goals, including appropriate metrics, to reduce the total amount of
Government property. For a discussion of management comments, see the Finding
section of the report. For the complete text of management comments, see the
Management Comments section of the report.

Audit Response. The Deputy Under Secretary of Defense (Acquisition Reform)
comments were fully responsive. The Defense Contract Management Agency
comments were not responsive. The purpose of the reporting is to track progress in
decreasing the amount of Government-owned property in contractor plants. It is simply
illogical to maintain that actions that do not remove property from those plants or that
relate to exempted items should be reported. We request that the Defense Contract
Management Agency provide additional comments on the final report by
December 13, 2000.




                                            ii
Table of Contents

Executive Summary                                              i

Introduction
     Background                                                1
     Objectives                                                2
Findings
     A. Property Reporting                                     3
     B. Effectiveness of the MRM 5 Goal                       10

Appendixes
     A. Audit Process                                         13
         Scope and Methodology                                13
         Management Control Program Review                    14
         Prior Coverage                                       15
     B. Summary of Allegations and Audit Results              16
     C. Report Distribution                                   17

Management Comments
     Deputy Under Secretary of Defense (Acquisition Reform)   19
     Defense Contract Management Agency                       20
____________________________________________________________



Background
     The audit was conducted in response to allegations to the Defense Hotline that
     the Defense Contract Management Agency (DCMA) (formerly the Defense
     Contract Management Command) was falling short of meeting its Management
     Reform Memorandum (MRM) 5 goal to dispose of $7 billion of excess
     Government-owned property by December 31, 1999. The allegations also
     stated that DCMA falsified property disposal reports by directing that plant
     clearance officers transfer the accountability of property from one contract to
     another, treating those actions as plant clearance disposal actions. As of
     December 31, 1999, DCMA reported about $7.3 billion of excess Government-
     owned property dispositions (hereafter referred to as property) in the custody of
     Defense contractors.

     Property Initiatives. As of September 30, 1997, the value of property held by
     DoD contractors was approximately $90.2 billion. The MRM and National
     Performance Review (NPR) goal 11b were implemented to eliminate excess
     property in the custody of Defense contractors.

             Management Reform Memorandum. The Under Secretary of Defense
     (Comptroller) issued the MRM, “Disposal of Excess Government-owned
     Property,” on May 21, 1997. The MRM was an initiative included as part of
     the DoD management reform that executed 17 infrastructure reductions that
     were proposed in the Quadrennial Defense Review. The MRM directed DCMA
     to develop a plan to “. . . eliminate excess government-owned property under
     the stewardship control of Defense contractors.” Government property includes
     items categorized as special tooling, special test equipment, industrial plant
     equipment, and other plant equipment and material.

             National Performance Review. As part of the NPR, DoD established a
     goal to dispose of $3 billion of excess property consisting of special test
     equipment, special tooling, industrial, and other plant equipment from
     contractors’ plants by December 31, 1999. Upon completion of that goal, DoD
     extended the NPR through December 31, 2001 and increased the property
     disposal goal to $5 billion. The Office of the Under Secretary of Defense for
     Acquisition, Technology, and Logistics (OUSD[AT&L]) reported NPR results
     to the NPR Reinvention Impact Center, which reported to the Vice President.
     OUSD (AT&L) used MRM disposal results to estimate NPR results.

     Defense Contract Management Agency. The DCMA administers about
     360,000 contracts valued at about $900 billion. DCMA performs a variety of
     services including Government property oversight, property control, and plant
     clearance functions. DCMA is divided into the East, West, and International
     districts.

     DCMA Plan and Goal. The DCMA established an implementation plan to
     eliminate excess property by completing a utilization review of all contracts with
     $3 million or more of property. The review identified 1,297 contracts at 529
     contractor locations. DCMA administers 1,046 of those contracts at 347


                                         1
____________________________________________________________


     contractor locations, and the Military Departments administer the remainder.
     DCMA also established a goal to increase disposal actions by 20 percent in FYs
     1998 and 1999, in an effort to meet the MRM goal of $7 billion in property
     disposals by December 31, 1999.

     DCMA Disposal Reports. The DCMA used the DCMA Automated
     Disposition System (DADS) in conjunction with manual data from the Military
     Departments to generate the MRM disposal action reports. DCMA forwarded
     the disposal action reports to OUSD(AT&L) on a quarterly basis from the first
     quarter of FY 1998 through the first quarter of FY 2000. OUSD(AT&L)
     subsequently reported those disposal actions to the Under Secretary of Defense
     (Comptroller).

     Plant Clearance Cases. The DCMA plant clearance officer establishes and
     enters all plant clearance cases into DADS. The cases include all validated
     inventory schedules and actions related to the screening, redistribution, and
     disposal of Government property from a contractor’s plant or work site. After
     the plant clearance officer verifies property disposal, the cases are closed in
     DADs.

     Proposed Rule Change for Government Property. On June 2, 1997, the
     Civilian Agency Acquisition Council and the Defense Acquisition Regulation
     Council published a proposed rule to simplify the management and disposition
     of Government property in the possession of contractors. As a result of public
     comments received in February 1998 and May 1999, the Councils have revised
     and restructured the proposed rule. Comments for consideration in the
     formulation of a final rule were required on or before March 10, 2000. Defense
     Procurement personnel have stated that the formulation of a final rule
     concerning property dispositions will occur in October 2000, and a proposed
     final rule for the management of property should occur in December 2000. The
     proposed rule changes will include property, definitions, management,
     performance of Government contracts, documentation and approval
     requirements, losses, liability for losses, records and reports, accountability,
     inventory schedules, reutilizations, screening, and disposals.

Objectives
     The audit objective was to determine whether the Defense Contract Management
     Agency plant clearance actions complied with applicable DoD guidance and
     whether the DCMA plant clearance cases actually resulted in the reduction of
     excess Government-owned property reported on the plant clearance actions. We
     also reviewed the adequacy of the management control program as it related to
     the audit objectives. See Appendix A for a discussion of the audit process and
     the review of the management control program.




                                         2
____________________________________________________________



            A. Property Reporting
            The DCMA data reported to OUSD(AT&L) on the MRM 5 goal to
            dispose of Government-owned property held by Defense contractors was
            inaccurate and unsupported. The MRM data was inaccurate because
            DCMA reported property that was not removed from contractor
            facilities. DCMA also reported agency peculiar property not included in
            the MRM. In addition, DCMA used property disposal data from an
            unreliable system, and did not have adequate management controls
            established to accurately compile the data. As a result, DCMA data did
            not accurately reflect the progress made toward meeting the established
            goal to dispose of $7 billion in excess property by December 31, 1999.
            Also, the inaccuracy of the MRM data raised serious questions as to the
            accuracy of the reported NPR data related to the reform initiative to
            dispose of $5 billion of unneeded special test equipment, special tooling,
            industrial, and other plant equipment by December 31, 2001.


Inaccurate and Unsupported Property Disposal Data
     As of December 31, 1999, DCMA reported that they met the MRM goal of
     $7 billion and reported final MRM property disposals of about $7.3 billion to
     the Deputy Secretary of Defense (previously the Under Secretary of Defense
     (Comptroller) and OUSD(AT&L). However, the DCMA reported MRM data
     that was inaccurate and unsupported.


DCMA Property Disposal Reports
     The DCMA reported MRM data that was inaccurate because they improperly
     included in disposal reports property transferred between contracts, property
     withdrawn from plant clearance actions, and agency peculiar property that was
     exempt from the MRM goals. During the audit, DCMA adjusted MRM totals
     to remove property that was withdrawn from plant clearance.

     Transferred Property. DCMA incorrectly reported property transferred
     between contracts at the same location as property disposals for MRM. DoD
     defines transfers of property between contracts as a redistribution. However,
     those transfers did not eliminate excess property from Defense contractors plants
     as intended by the MRM. DCMA overstated the amounts reported under the
     MRM and NPR when transferred property was included in property disposals.

     We reviewed 44 plant clearance cases valued at $94.9 million from DCMA-East
     and one plant clearance case valued at $165 million from DCMA-West. We
     determined that 3 of the 45 plant clearance cases valued at $185.9 million were
     transfers of property between contracts. One plant clearance case valued at
     $165 million for a B-2 test article was identified by the contractor as excess and
     transferred to another contract at the same contractor location. Two other plant


                                         3
____________________________________________________________


     clearance cases, one valued at $10.8 million and another valued at
     $10.1 million, were transferred from a contract to a basic ordering agreement at
     the same contractor location. Although the contractor retained the property in
     all cases, the plant clearance cases were treated as property disposal actions and
     reported as part of the MRM and NPR.

     Between October 1, 1997, and December 31, 1999, DCMA included about
     $1.5 billion of redistributed property in reported MRM disposals. This
     redistributed property amounted to about 20.1 percent of the $7.3 billion in
     reported MRM disposals. We were unable to determine the value of property
     transferred between contracts at the same contractor location because the DADS
     database that was used for tracking plant clearance actions did not accurately
     identify this information.

     Withdrawn Property. The DCMA erroneously reported property that had
     been withdrawn from the plant clearance process as MRM disposal items. A
     withdrawal action results when property is identified for disposal and is
     subsequently withdrawn by either the Government or the contractor for ongoing
     or future work. Between October 1, 1997 and December 31, 1999, about
     $585 million or 8.0 percent of the $7.3 billion reported as MRM disposals was
     actually attributed to property withdrawn from the disposal process.

     DCMA Corrective Action. During the audit, DCMA agreed that property
     withdrawn from the disposal process was not removed from the contractor
     facilities and should not have been included as disposal items in the MRM and
     NPR reports. The DCMA adjusted the MRM and NPR amounts to exclude
     about $369 million of property classified as withdrawn from inventory. The
     DCMA could not provide documentation to support that amount; therefore, we
     question the $369 million adjustment, and believe that additional reductions
     probably should be made to the reported MRM and NPR disposal totals.

     Agency Peculiar Property. The DCMA erroneously included agency peculiar
     property in reported MRM disposal totals. Agency peculiar property was
     specifically exempt from the MRM goal and should not have been included as
     disposal items for MRM reporting. Between October 1, 1997 and
     September 30, 1998, DCMA reported at least $9.5 million of agency peculiar
     property as property disposals toward meeting the MRM goal. We readily
     identified the disposal of this agency peculiar property because it was the only
     property on the contract. We believe that DCMA reported the disposal of
     additional agency peculiar property. However, we were unable to determine the
     total value of the additional agency peculiar property reported because the
     DADS database that was used for tracking disposal actions, did not accurately
     show this information.




                                         4
____________________________________________________________


Support for Property Disposals
     The DCMA data used for reporting MRM and NPR property disposals was not
     supported because the data was obtained from an unreliable property disposal
     reporting system. DCMA also did not have adequate management controls
     established to compile property disposal data.

     Property Disposal Reporting System. The DCMA used the DADS database to
     report MRM property disposals. However, the database did not consistently
     generate accurate summary disposal information or identify the types of
     property disposed of in the summary disposal reports. The DCMA was aware,
     prior to the start of the MRM, that the DADS database legacy system was
     unreliable. The DCMA Government Property Group frequently submitted
     reports to the system administrator about the inability of the system to calculate
     accurate disposal data.

             Accuracy of Summary Report Data. The DCMA was unable to
     support MRM report data because the data was generated from an unreliable
     system. We tested MRM report data obtained from the DADS database to
     determine the accuracy and reliability of the data. We determined that report
     totals were inconsistent. For example, DCMA reported $6.5 billion disposal
     amounts using quarterly reports from DADS from October 1, 1997 to
     December 31, 1999. However, the DADS summary report disposal amounts
     for the same period only totaled $6.3 billion or $200 million less than the
     quarterly report. The remainder of the total $7.3 billion reported for the MRM
     goal was provided to DCMA by the Services through manual inputs. We
     further compared quarterly reports with monthly reports for the same period and
     found differences totaling approximately $300 million. We also found
     differences in the monthly report totals when the reports were extracted at
     different times.

             Identification of Transfers and Types of Property. The DCMA was
     unable to support MRM data because the DADS property disposal reports did
     not readily identify transfers or the disposal of specific types of property. As a
     result, DCMA submitted MRM property disposal reports that incorrectly
     included property transferred between contracts and agency peculiar property.

     Controls for Compiling MRM Data. The DCMA did not have adequate
     management controls established to compile MRM property disposal data. The
     DCMA did not perform sufficient oversight and review of the reported MRM
     data to ensure reliability. For example, DCMA reported data for disposal
     actions, and property that should not have been included in the property disposal
     reports. If DCMA had performed sufficient reviews of the data prior to
     submitting the MRM disposal reports, the property could have been excluded
     and manual adjustments could have been made. In addition, DCMA also relied
     on the information extracted from the DADs database even though they were
     fully aware of the system’s inability to calculate consistent and accurate data.
     This lack of review by DCMA resulted in a failure to identify simple
     mathematical errors, which produced inaccurate disposal reports. DCMA also
     did not include any disclaimers qualifying the accuracy of the reported MRM


                                          5
____________________________________________________________


     data. As a result, there was no assurance that the reported MRM data showed
     accurate property disposals and progress toward meeting the MRM goal.

     National Performance Review Goal. The OUSD(AT&L) used the DCMA
     reported MRM data as the basis for reporting on the NPR. OUSD(AT&L)
     determines what is reported for the NPR by applying an annual percentage
     ranging between 45 and 52 percent to the MRM results to determine disposals
     of special tooling, and special test equipment. The reporting percentages for the
     current fiscal year are determined by multiplying the amount of property
     disposed of quarterly by the prior fiscal year ratio of special test equipment,
     special tooling, industrial, and other plant equipment to total baseline property.
     For example, the FY 1998 ratio was 51.5 percent ($21.1 billion/$40.9 billion)
     multiplied by the MRM reported amounts. Because MRM data was used to
     calculate the NPR, we must also question the reliability of the $5.1 billion
     reported in August 2000, towards the NPR goal to dispose of $5.0 billion by
     December 31, 2001. We believe that DCMA should issue property disposal
     reports that exclude transferred, withdrawn and agency peculiar property from
     report totals used to meet the NPR goal.

Summary
     The MRM data reported by DCMA was inaccurate and unsupported. As of
     December 31, 1999, DCMA reported property disposals of $7.3 billion and
     closed out the MRM initiative. DCMA did not meet the MRM 5 goal because
     DCMA included in MRM totals, transferred, withdrawn and agency peculiar
     property. This resulted in reported MRM totals that were overstated by at least
     $411.4 million. Further, the inaccurate MRM data resulted in misstated NPR
     totals.

Recommendations, Management Comments and Audit
  Response
     1. We recommend that the Director, Defense Contract Management
        Agency provide property disposal reports to the Under Secretary of
        Defense for Acquisition, Technology, and Logistics for meeting the
        extended National Performance Review Goal, that exclude transferred,
        withdrawn and agency peculiar property from report totals.

     Management Comments. The Defense Contract Management Agency
     concurred with excluding withdrawn property (losses, reporting errors,
     duplicate inputs, etc.) from property disposal reports provided to the Under
     Secretary of Defense for Acquisition, Technology, and Logistics for meeting the
     extended National Performance Review totals. However, the Defense Contract
     Management Agency nonconcurred with excluding transferred and agency
     peculiar property. The Defense Contract Management Agency stated that the
     reported information was consistent with disposal policy in the Federal
     Acquisition Regulation and the Defense Federal Acquisition Regulation
     Supplement. In addition, the Defense Contract Management Agency stated,
     “. . . reporting excess and surplus contractor inventory includes total

                                         6
____________________________________________________________


     redistributions within the owing agency and other agencies.” “Total
     redistributions . . .” include all transfers of excess property regardless of
     whether the property left a particular facility. Also, Federal Acquisition
     Regulation part 45.603, “Disposal Methods” states, “. . . an agency may
     exercise its rights to require delivery of any contractor inventory.” This
     delivery requirement includes transfers of Government property to another
     Government contract. The Defense Contract Management Agency believes it
     irrelevant that an item was actually removed from the contractor’s facility or
     was transferred to meet a legitimate need on another contract within the facility.

     The Defense Contract Management Agency also disagreed that agency peculiar
     property should not be included in the Management Reform Memorandum
     initiative. The Defense Contract Management Agency stated that the goal did
     not reference any specific classes of property, and disposals were reported for
     all classes of property, including agency peculiar property.

     Audit Response. Although the Defense Contract Management Agency
     concurred with most of the withdrawn property portion of the recommendation,
     we believe that property withdrawn and retained by contractors should also be
     eliminated from disposal reporting. We agree that reporting property
     transferred between contracts at the same contractor location is consistent with
     the policy in the Federal Acquisition Regulation and the Defense Federal
     Acquisition Regulation Supplement for the disposition of Government property.
     However, the intent of the Management Reform Memorandum and the National
     Performance Review goals was to report the “elimination” or “disposal” of
     Government property from the possession of Defense contractors and not to
     include property merely transferred to other contracts at the same contractor
     location, or withdrawn and retained by the contractor. The intent of the Federal
     Acquisition Regulation part 45.603, was to recognize that an agency has the
     right to require contractors to deliver inventory, including transfers, to other
     Government agencies or contractors. If the agency does not exercise that right,
     then the agency should use one of the cited methods (transfers not listed) to
     “dispose” of the property.

     We disagree with the Defense Contract Management Agency concerning agency
     peculiar property. A memorandum dated September 25, 1997, from the Under
     Secretary of Defense for Acquisition, Technology, and Logistics to the
     Secretaries of the Military Departments, and Directors, Defense Agencies
     stated, “. . . the Military Departments and the Defense Contract Management
     Agency have developed a plan to eliminate excess Government-owned tooling,
     equipment, and material [not agency peculiar property] and reduce the amount
     of underutilized government property in the custody of contractors beginning
     immediately and concluding by January 1, 2000.” In addition, the Defense
     Contract Management Agency, “Disposition Review Plan for Government
     Property,” only lists special tooling, special test equipment, industrial plant
     equipment, other plant equipment and material, and does not list agency peculiar
     property. Also, FAR part 45.301, does not include agency peculiar property in
     special test equipment, special tooling, Government material, and facilities. In
     addition, a memorandum dated February 4, 1999, from the Defense Contract
     Management Agency to the Under Secretary of Defense for Acquisition,


                                         7
____________________________________________________________


     Technology, and Logistics, stated that agency peculiar property was not within
     the Management Reform Memorandum property universe.

     We request that the Defense Contract Management Agency reconsider the
     management comments concerning transferred, withdrawn, and agency peculiar
     property, and provide additional comments on the final report.

     2. We recommend that the Director, Defense Contract Management
     Agency establish controls for monitoring the compilation and accuracy of
     property disposal data and to ensure that transferred, withdrawn and
     agency peculiar data are not reported as disposals that count toward
     meeting the National Performance Review goal.

     Management Comments. The Defense Contract Management Agency
     concurred and stated that controls are in place, and were in place during our
     review, and that withdrawals are no longer reported. In addition, the
     information reported under the Management Reform Memorandum and
     National Performance Review initiatives is consistent with disposal policy in the
     Federal Acquisition Regulation and Defense Federal Acquisition Regulation
     Supplement. The guidance states that transferred property should not be
     excluded, and the Defense Contract Management Agency reporting criteria has
     been embedded in the Defense Acquisition National Performance Review Plan.

     The Defense Contract Management Agency agreed that a material management
     control weakness existed for property withdrawn from plant clearance cases.
     However, they disagreed that a material management control weakness existed
     for “transferred property.” The Defense Contract Management Agency stated
     that the reported information was consistent with the Federal Acquisition
     Regulation and the Defense Federal Acquisition Regulation Supplement. In
     addition, the Director, Defense Procurement had been informed that the Defense
     Contract Management Agency could not segregate disposal actions by property
     classification because of reporting system limitations. Therefore, the total
     amount of property disposed of each quarter was multiplied by a ratio of special
     tooling, special test equipment, and equipment to estimate tooling and equipment
     disposals for meeting the National Performance Review Goal. The Defense
     Contract Management Agency considers all action complete.

     The Defense Contract Management Agency disagreed that they used property
     disposal data from an unreliable system, and did not have adequate management
     controls established to accurately compile the data. The Defense Contract
     Management Agency stated that problems were discovered through management
     controls before our review, when generating some reports, and changes were
     made to correct the problems. A report that was generated in July 2000, for the
     entire Management Reform Memorandum period, showed dispositions totaling
     $6.3 billion for the Defense Contract Management Agency. That amount was
     adjusted to $5.9 billion to account for withdraws. The Services also reported
     disposals of $1.2 billion for a combined total of $7.1 billion, which exceeded
     the $7 billion Management Reform Memorandum goal by 100 million.

     Audit Response. While we recognize that property transfers are a form of
     redistribution, the inclusion of property transferred between contracts at the

                                          8
____________________________________________________________


     same location, and retained by the same contractors does not eliminate excess
     property from Defense contractors plants, as intended by the Management
     Reform Memorandum. The property disposal data base used by the Defense
     Contract Management Agency to summarize and report property disposals is not
     capable of separating property transfers that remained at the contractors
     location, from transfers made to other locations. The Defense Contract
     Management Agency also can not readily determine whether or not property
     was removed from contractors facilities.

     We do not believe that adequate management controls are in place to accurately
     report property disposals. The Defense Contract Management Agency should
     not include property transferred or withdrawn and retained at the same
     contractor location, or agency peculiar property when reporting disposals to
     meet the extended National Performance Review goal. The National
     Performance Review is a measurement of disposed excess special test
     equipment, special tooling, industrial, and other plant equipment. Federal
     Acquisition Regulation part 45.301, excludes agency peculiar property from
     special test equipment, special tooling, Government material, and facilities.

     We disagree with the Defense Contract Management Agency that they used a
     reliable property disposal reporting system. The Defense Contract Management
     Agency reported on March 14, 2000, to the Under Secretary of Defense for
     Acquisition, Technology, and Logistics $7.3 billion in disposals, as of
     December 31, 1999, and that the Management Reform Memorandum goal had
     been exceeded by $300 million. The same system that generated the data for the
     March report also produced the July 2000 report cited by the Defense Contract
     Management Agency in their comments. The Defense Contract Management
     Agency made adjustments for withdraws, and included the Services in both
     reports. However, the same property disposal system produced two reports that
     differed by $200 million even though the same data, time, and parameters were
     used. In addition, during our review, we could not reconcile the disposal
     amounts reported by the Defense Contract Management Agency with the
     amounts in the property disposal system. Also, the Defense Contract
     Management Agency could not provide accurate support for the amounts
     reported to the Under Secretary of Defense for Acquisition, Technology, and
     Logistics. Therefore, we request that the Defense Contract Management
     Agency reconsider its position on the recommendation and provide comments on
     the final report.




                                        9
____________________________________________________________



            B. Effectiveness of the MRM 5 Goal
            The DoD goal to dispose of $7 billion of property under the MRM 5
            initiative was ineffective and did not reduce the total amount of property
            in the possession of contractors. This goal was ineffective because it
            failed to address the issue of new property furnished to contractors, and
            did not measure the net effect of MRM disposals against those increases.
            As a result, DoD did not reverse the property growth trend or reduce the
            total amount of property in the possession of contractors. In fact, the
            total property in the possession of contractors increased by $1.1 billion
            during the MRM 5 initiative. Also, property in the possession of
            contractors that was specifically addressed in MRM 5 goal increased by
            about $428 million during the period of October 1, 1997 through
            December 31, 1999.

MRM 5 Goal Measurement
     The MRM 5 goal that DoD established to dispose of $7 billion of property in
     the possession of contractors was ineffective and did not reduce the total amount
     of property in the possession of contractors. Prior to the MRM 5 initiative,
     property in the possession of Defense contractors increased from about
     $45 billion in FY 1986 to about $90.2 billion in FY 1997. In an effort to
     reverse the property growth trend and to reduce the amount of property in the
     possession of contractors, the Under Secretary of Defense (Comptroller)
     established the MRM 5 initiative in 1997. DoD established a goal to dispose of
     $7 billion of excess and underutilized property by December 31, 1999.

     Property Measurement to Achieve the Goal. The DoD goal was ineffective
     because DoD failed to address the issue of new property and did not measure
     the net effect of MRM disposals against those increases. The DoD goal focused
     solely on measuring the amount of property disposals and not on reducing the
     total amount of property in the possession of contractors. Although DCMA
     reported that the MRM goal was exceeded, the value of property in the property
     categories addressed in the MRM increased by about $428 million. Also, total
     property in the possession of contractors as of December 31, 1999 was about
     $91.3 billion, an increase of $1.1 billion during the initiative period.

     The following table shows the beginning value, the ending value, and the
     changes for the reported MRM property by category. The table shows that even
     though DCMA reported property disposals of about $7.3 billion as of
     December 31, 1999, contractors had more property in their possession than they
     had at the start of the initiative. Three types of property increased and three
     types of property decreased in value with a net increase of $428 million.




                                        10
____________________________________________________________



                                 Reported MRM 5 Property
                                        (in millions)1

           Type of Property2                     FY 19973   Dec. 31, 1999     Change
Government furnished material                     $15,167    $16,700         $1,533
Other plant equipment                               8,076      8,600            524
Special test equipment                              7,917      7,400           (517)
Contractor acquired material                        4,497      3,900           (597)
Special tooling                                     4,235      3,700           (535)
Industrial plant equipment                            725        745             20

 Total                                            $40,617     $41,045        $ 428

Notes:
1
  Dollars are acquisition value of property.
2
  Property included in the MRM initiative.
3
  As of September 30, 1997, the MRM initiative began.


       The MRM 5 initiative did not reverse the property growth trend or reduce the
       total amount of property in the possession of contractors. The DoD goal failed
       to address new property furnished to contractors, and did not measure or reflect
       the net effect of MRM disposals against those increases. In order to effectively
       evaluate whether DoD is successful in reducing the amount of property in the
       possession of contractors, DoD should establish goals to reduce the total amount
       of property and to limit the amount of growth for new property in the possession
       of contractors. DoD should closely monitor the changes in the Contractor
       Property Management System, especially new property in the possession of
       contractors. We realize that the proposed rule change for Government property
       will impact the management and disposition of property held by Defense
       contractors. However, the changes will not eliminate the need for DoD to
       establish long term goals and implementation plans to reduce DoD property
       growth trends, or reduce the total amount of property in the possession of
       contractors.

Recommendations, Management Comments, and Audit
  Response
       We recommend that the Office of the Under Secretary of Defense for
       Acquisition, Technology, and Logistics establish realistic long term goals
       and implementation plans to reduce the total amount of property and to
       limit the amount of growth for new property in the possession of
       contractors. The goal should measure the changes in the value of property
       in the Contractor Property Management System, to include new property in
       the possession of contractors.
                                               11
____________________________________________________________


     Management Comments. The Deputy Under Secretary of Defense
     (Acquisition Reform) concurred with the recommendation that long term
     realistic goals, including appropriate metrics to reduce the total amount of
     Government property, should be established. Also, in process policy initiatives,
     including changes to the Federal Acquisition Regulation and DoD Regulations
     should reduce the amount of Government Property provided to, and in the
     possession of contractors. These actions are scheduled for completion by
     March 30, 2001.




                                        12
____________________________________________________________



Appendix A. Audit Process

Scope and Methodology
     Work Performed. The audit focused on the procedures used by DCMA to
     dispose of Government property at Defense contractors’ plants in meeting the
     MRM goal of $7 billion in property disposals by December 31, 1999. We
     judgmentally sampled 45 plant clearance cases valued at $259.9 million, which
     were administered by DCMA field offices.

     DoD-Wide Corporate Level Government Performance and Results Act
     (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
     annually establishes DoD-wide corporate level goals, subordinate performance
     goals, and performance measures. This report pertains to achievement of the
     following goal and performance measure.

            FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
            future by pursuing a focused modernization effort that maintains U.S.
            qualitative superiority in key warfighting capabilities. Transform the
            force by exploiting the Revolution in Military Affairs, and reengineer the
            Department to achieve a 21st century infrastructure (01-DoD-2).
            FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
            needs smarter and faster, with products and services that work better and
            cost less, by improving the efficiency of DoD acquisition processes
            (01-DoD-2.4). FY 2001 Performance Measure 2.4.7: Disposal of
            unneeded Government property held by contractors (01-DoD-2.4.7.).

     DoD Functional Area Reform Goals. Most major DoD functional areas have
     also established performance improvement reform objectives and goals. This
     report pertains to achievement of the following functional area objectives and
     goals.

            • Acquisition Functional Area. Objective: Internal reinvention.
              Goal: Dispose of $2.2 billion in excess National Defense Stockpile
              inventories and $3 billion in unneeded Government property while
              reducing supply inventory by $12 billion. (ACQ-3.3)

            • Logistics Functional Area. Objective: Streamline logistics
              infrastructure. Goal: Implement most successful business practices
              (resulting in reductions of minimally required inventory levels).
              (LOG-3.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Inventory Management high-risk area.




                                        13
____________________________________________________________


     Use of Computer-Processed Data. We did not rely on computer processed
     data to achieve the audit objectives. However, our review of the property
     disposal reports generated by the DCMA Automated Disposition System showed
     different results for the same time period, making the reliability of the system
     questionable.

     Universe and Sample. We reviewed 45 plant clearance cases on 19 contracts
     for 10 contractors valued at $259.9 million to determine whether DCMA plant
     clearance actions complied with applicable DoD guidance and to determine
     whether the plant clearance actions resulted in the actual disposal of property.
     We judgmentally selected 18 plant clearance cases valued at $66.1 million from
     the DCMA-Orlando, Florida; 26 plant clearance cases valued at $28.8 million
     from DCMA-Baltimore, Maryland; and 1 plant clearance case valued at $165
     million from DCMA-Northrop Grumman, Hawthorne, California, that were
     closed between October 1, 1997 and October 31, 1999. The sample represented
     approximately 3.5 percent of the $7.3 billion reported in MRM disposals as of
     December 31, 1999.

     Audit Type, Period and Standards. We performed this economy and
     efficiency audit from October 1999 through June 2000 in accordance with
     auditing standards issued by the Comptroller General of the United States as
     implemented by the Inspector General, DoD.

     Contacts During the Audit. We visited and contacted individuals and
     organizations within DoD. Further details are available upon request.


Management Control Program Review
     DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
     and DoD Instruction 5010.40, “Management Control (MC) Program
     Procedures,” August 28, 1996, requires DoD organizations to implement a
     comprehensive system of management controls to provide reasonable assurance
     that programs are operating as intended and to evaluate the adequacy of the
     controls.

     Scope of Review of the Management Control Program. We reviewed
     management controls for reporting disposition of excess Government-owned
     property. Specifically, we reviewed management controls over the disposition
     of excess Government-owned property reported on plant clearance actions at
     DCMA Headquarters and field offices.

     Adequacy of Management Controls. We identified material management
     control weaknesses for DCMA as defined in DoD Instruction 5010.40.
     Management controls were not adequate to ensure that closed plant clearance
     cases that were reopened or withdrawn were not reported as disposals. In
     addition, management controls were not adequate to ensure property transferred
     between contracts and property in the custody of contractors was being treated
     as a disposal. Also, management controls were not adequate to ensure the
     accuracy of MRM disposals reported to the Under Secretary of Defense for


                                        14
____________________________________________________________


     Acquisition, Technology, and Logistics. The recommendations, if
     implemented, will correct the deficiencies. A copy of this report will be
     provided to the senior DCMA official responsible for management controls.

     Adequacy of Management’s Self-Evaluation. Management’s self-evaluation
     did not detect and report the identified management control weaknesses because
     DCMA risk assessments established for FYs 1998 and 1999 did not assess
     property dispositions as part of the DCMA management control program.

Prior Coverage
     Reports were issued on Government-owned property in the possession of
     contractors, however, no prior audit coverage has been completed specifically
     related to the MRM 5 or NPR 11b goals during the last 5 years.




                                        15
____________________________________________________________



Appendix B. Summary of Allegations and Audit
            Results
     The summary of allegations to the Defense Hotline and our audit results are
     discussed in detail in the following paragraphs.

     Allegation 1. The DCMA is falling short of meeting its Management Reform
     Memorandum 5 goal to dispose of $7 billion in excess Government property in
     the custody of Defense contractors.

     Audit Results. The allegation was substantiated. We determined that DCMA
     did not meet its goal to dispose of $7 billion in excess Government property in
     the custody of Defense contractors. As of December 31, 1999, DCMA reported
     final MRM property disposals of $7.3 billion. DCMA included in the MRM
     disposal report totals at least $411.4 million for property that was transferred to
     other contracts at the same location, property that was withdrawn from plant
     clearance actions by the contractor, and agency peculiar property.

     Allegation 2. DCMA reports on the disposal of property were falsified because
     property accountability was transferred from one contract to another and treated
     as a plant clearance disposal action.

     Audit Results. The allegation was partially substantiated. We determined that
     DCMA considered property transfer from one contract to another contract at the
     same contractor location as disposal actions and included those actions in the
     MRM report totals. We believe that property transfers should not have been
     included in MRM reports because those transfers did not eliminate excess
     property from Defense contractors’ plants as intended by the MRM initiative.
     However, we found no evidence that DCMA included transferred property in
     MRM report totals in an attempt to intentionally falsify reports submitted to the
     OUSD(AT&L). DCMA routinely considered dispositions and disposals to be
     synonymous and included everything in disposal reports. During the audit,
     DCMA adjusted report totals provided to OUSD(AT&L) for some of the
     improper withdrawals.




                                         16
____________________________________________________________



Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Contract Management Agency
Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations



                                          17
____________________________________________________________


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont.)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       18
____________________________________________________________



Deputy Under Secretary of Defense (Acquisition
Reform) Comments




                             19
Defense Contract Management Agency
Comments




                     20
     Final Report
      Reference




     See audit
     response to
     Recom-
     mendation
     A.1. pages 6
     and 7




     See audit
     response to
     Recom-
     mendation
     A.2. page 8




21
Final Report
 Reference




See audit
response to
Recom-
mendation
A.2. page 8




               22
     Final Report
      Reference




     See audit
     response to
     Recom-
     mendation
     A.2. page 8




23
Audit Team Members
   Paul J. Granetto
   Joseph P. Doyle
   John Yonaitis
   Lisa Such
   Galfrid S. Orr
   Wilber Broadus
   Christine Haynes
